No.

Jf n tbe ~upreme <tourt of tbe Wniteb ~tateg
FRANKLIN RAFAEL LOPEZ TOALA,

Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.

On Petition for a Writ of Cer1tiorari to
the United States Court of Appeals
for the Eleventh Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
BRIAN P. BATTAGLIA

Counsel of Record

BLEAKLEY BAVOL DENMAN
&GRACE

15316 N. Florida Avenue
Tampa, FL 33613
(813) 221-3759
bbattaglia@bbdglaw.com
eservice@bbdglaw.com

Counsel for Petitioner

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Franklin Rafael Lopez Toala, by and through his undersigned
counsel and pursuant to Supreme Court Rules 21 and 39, 39.1, respectfully moves
and requests leave to file his petition for a Writ of Certiorari without prepayment or
payment of costs and to proceed in forma pauperis, and in support of this motion,
Petitioner states as follows:
1.

Petitioner is filing a petition for a writ of certiorari to the United

States Court of Appeals for the Eleventh Circuit, seeking review of the Eleventh
Circuit's opinion affirming Petitioner's sentence.
2.

Petitioner was previously found financially unable to obtain counsel

and the undersigned was appointed to represent Petitioner pursuant to Title 18
U.S.C. Section 3006A.
3.

The Petitioner was also previously granted leave to proceed in forma

pauperis in the United States Court of Appeals for the Eleventh Circuit.
4.

A copy of the order and also letter from the Eleventh Circuit appoint-

ing undersigned counsel to represent Petitioner pursuant to the Criminal Justice
Act of 1964, 18 U.S.C. § 3006A, is attached hereto.
5.

Counsel for Petitioner intends to represent the Petitioner in all pro-

ceedings in this Court.
6.

Therefore in reliance upon Rule 39, 39.1 and Title 18 U.S.C. Section

3006A, Petitioner has not attached the affidavit which would otherwise be required
by law, including Title 28 U.S.C. Section 1746.

1

WHEREFORE, the undersigned respectfully requests the Court grant Peti-

tioner's motion for leave to proceed in forma pauperis.
August 20th, 2020

,,

BRIAN P. BATTAGLIA

Counsel of Record

BLEAKLEY BAVOL DENMAN

15316 N. Florida Avenue
Tampa, FL 33613
(813) 221-3759
bbattaglia@bbdglaw.com
eservice@bbdglaw.com

Counsel for Petitioner

2

& GRACE

Case: 19-11335

Date Filed: 04/10/2019

Page: 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.ca 1.1 . uscouns.~o,·

David J. Smith
Clerk of Court

April 10, 2019
Brian P. Battaglia
Battaglia Ross Dicus & McQuaid, PA
5858 CENTRAL A VE STE A
ST PETERSBURG, FL 33707
Appeal Number: 19-11335-J
Case Style: USA v. Franklin Lopez Toala
District Court Docket No: 8: 18-cr-00511-SDM-JSS-2
Party To Be Represented: Franklin Rafael Lopez Toala
Dear Counsel:
We are pleased to advise that you have been appointed to represent on appeal the indigent
litigant named above. This work is comparable to work performed pro bono publico. The fee
you will receive likely will be less than your customary one due to limitations on the hourly rate
of compensation contained in the Criminal Justice Act (18 U.S.C. § 3006A), and consideration
of the factors contained in Addendum Four§ (g)(l) of the Eleventh Circuit Rules.
Supporting documentation and a link to the CJA eVoucher application are available on the
internet athttp://www.call.uscourts.gov/attornev-info/criminal-iustice-act. For questions
concerning CJA eVoucher please contact our CJA Team by email at
cja_evoucher@call.uscourts.gov or phone 404-335-6167. For all other questions, please call
the "Reply To" number shown below.
Every motion, petition, brief, answer, response and reply filed must contain a Certificate of
Interested Persons and Corporate Disclosure Statement (CIP). Appellants/Petitioners must file a
CIP within 14 days after the date the case or appeal is docketed in this court;
Appellees/Respondents/Intervenors/Other Parties must file a CIP within 28 days after the case
or appeal is docketed in this court, regardless of whether appellants/petitioners have filed a CIP.
See FRAP 26.1 and 11th Cir. R. 26.1-1.
On the same day a party or amicus curiae first files its paper ore-filed CIP, that filer must also
complete the court's web-based CIP at the Web-Based CIP link on the court's website. Prose

Case: 19-11335

Date Filed: 04/10/2019

Page: 2 of 2

filers (except attorneys appearing in particular cases as pro se parties) are not required or
authorized to complete the web-based CIP.
Within fourteen (14) days from this date, you must file a Transcript Information Form, as
required by Fed.R.App.P. I0(b)(l); a Transcript Information Form is available from the district
court clerk. Appellant is required to file and serve copies of the form in accordance with the
instructions included on the form.
Your claim for compensation under the Act should be submitted within 60 days after issuance
of mandate or filing of a certiorari petition. We request that you enclose with your completed
CJA Voucher one additional copy of each brief, petition for rehearing, and certiorari petition
which you have filed. Please ensure that your voucher includes a detailed description of the
work you performed. Thank you for accepting this appointment under the Criminal Justice Act.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Davina C. Burney-Smith, J
Phone#: (404) 335-6183
CJA-1 Appointment of Counsel Letter

Case 8:18-cr-00511-SDM-JSS Document 85 Filed 04/19/19 Page 1 of 1 PagelD 575

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
UNITED STATES OF AMERICA
CASE NO. 8:18-cr-00511-T-23JSS

V.

FRANKLIN RAFAEL LOPEZ TOALA

____________/

ORDER APPOINTING CJA COUNSEL FOR APPEAL
This matter is before the Court on referral from District Judge Steven Merryday regarding
appointment of counsel for appeal. Because the above-named Defendant has testified under oath
or has satisfied the Court that he is financially unable to employ counsel, and does not wish to
waive counsel, and because the interests of justice so require, it is hereby

ORDERED that Brian P. Battaglia, Esq., 15170 N. Florida Avenue, Tampa, Florida
33613, (813) 221-3759 (Telephone), is appointed to represent the Defendant in this case as to
appellate proceedings only.

DONE AND ORDERED in Tampa, Florida on April 19, 2019.

Copies furnished to:
Counsel of Record
Brian P. Battaglia, Esq., 15170 N. Florida Avenue, Tampa, Florida 33613
U.S. Court of Appeal, Eleventh Circuit
Defendant c/o US Marshal

